APPENDIX A
United States Court of Appeals
for the Armed Forces
Washington, D.C.
United States,
Appellee
v.
Richard M. Camacho,
Appellant
USCA Dkt. No. 19-0157/AR
Crim.App. No. 20140495
ORDER
On consideration of Appellant’s petition for
grant of review of the decision of the United States
Army Court of Criminal Appeals, we note that the
Court of Criminal Appeals set aside the findings of
guilty for Specifications 1 and 5 of Charge III and
dismissed those specifications. Because these were the
only two guilty findings under that charge, the Court
of Criminal Appeals should have set aside the guilty
finding to Charge III as well but failed to do so.
Accordingly, it is, by the Court, this 23rd day of May,
2019,

1a

ORDERED:
That said petition is hereby granted. The
finding of guilty as to Charge III is set aside, and that
charge is dismissed. The decision of the United States
Army Court of Criminal Appeals is affirmed in all
other respects.
For the Court,
/s/ Joseph R. Perlak
Clerk of the Court
cc:

The Judge Advocate General of the Army
Appellate Defense Counsel (Maher)
Appellate Government Counsel (Williams)

2a

APPENDIX B
UNITED STATES ARMY COURT
OF CRIMINAL APPEALS
Before
BURTON, HAGLER, and SCHASBERGER
Appellate Military Judges
UNITED STATES,
Appellee
v.
Captain RICHARD M. CAMACHO
United States Army,
Appellant
ARMY 20140495
Headquarters, 82d Airborne Division
Deidra J. Fleming, Military Judge
Colonel John N. Ohlweiler, Staff Judge Advocate
For Appellant: Captain Daniel C. Kim, JA; John N.
Maher, Esquire (on brief);
Captain Steven J. Dray, JA; John N. Maher, Esquire
(on reply brief).
For Appellee: Lieutenant Colonel Eric K. Stafford, JA;
Major Austin L. Fenwick, JA; Captain Joshua
Banister, JA (on brief).
3a

30 November 2018
MEMORANDUM OPINION
This opinion is issued as an unpublished
opinion and, as such, does not serve as precedent.
BURTON, Senior Judge:
In this case, we explore a melange of unlawful
command influence claims, encompassed in appellant's
first two assignments of error. These claims involve
statements by politicians and senior leaders
concerning sexual assault in the armed forces, the
Sexual Harassment/Assault Response and Prevention
(SHARP) program, and a meeting by the convening
authority and the victim in the case after referral of
charges. We find, under the facts of this case, that
neither unlawful command influence nor unlawful
influence tainted these proceedings. We also address
appellant's assertion that the evidence is legally and
factually insufficient to support the findings of guilty
in the case; on this issue we provide appellant some
relief by dismissing the kidnapping and indecent
language specifications.1
1

After due consideration, we find the remaining seven
assignments of error lack merit.
One of these assigned errors claims appellant's trial defense
counsel were ineffective in failing to show the members a
videotaped interview of the victim, Captain (CPT) AA, by the
Army Criminal Investigation Command (CID). During this
approximately ninety-minute interview, CPT AA stated "there

4a

was no sexual force, or anything." Appellant also asserts counsel
were deficient in failing to request or obtain the metadata for the
photographs of CPT AA' s injuries admitted at trial or use that
information to verify the timeline of events reported by CPT AA.
"In order to prevail on a claim of ineffective assistance of counsel,
an appellant must demonstrate both (1) that his counsel's
performance was deficient, and (2) that this deficiency resulted in
prejudice." United States v. Green, 68 M.J. 360, 361-62 (C.A.A.F.
2010) (citing Strickland v. Washington, 466 U.S. 668, 687 (1984)).
"When challenging the performance of counsel, the defense bears
the burden of establishing the truth of the factual allegations that
would provide the basis for finding deficient performance." United
States v. Tippit, 65 M.J. 69, 76 (C.A.A.F. 2007); (citing United
States v. Polk, 32 M.J. 150, 153 (C.M.A. 1991)).
Appellant's claims are not supported by any evidence in the record
of trial (see Rule for Court-Martial (R.C.M.) 1103(b)(2)(D)), or
properly admitted on the appellate record. The recording of the
CID interview was neither marked nor admitted at trial or during
the post-trial Article 39a, UCMJ, session. A ten-second excerpt
was contained in the appellant's R.C.M. 1105 matters, but that is
not the record before us on review. Likewise, the metadata for the
photographs was not marked or admitted on the record. Finally,
appellant's claims are not supported by affidavits or sworn
statements. Without evidence before us in a manner we can
consider, we are left with appellant's naked assertions of trial
defense counsel's deficiencies. In a claim of ineffective assistance
of counsel, the burden lays solely on appellant to prove the claim.
When the claim relies entirely on evidence not included as part of
the authenticated record, failure to meet the burden may be fatal.
We therefore find appellant has not met his burden in
establishing deficient performance by his trial defense counsel.
Even if we were to consider the excerpt of the CID interview in
appellant's R.C.M. 1105 submission, we would still reject
appellant's ineffective assistance of counsel claim. Simply put, this
short clip extracted from the interview is not contextualized in

5a

A panel of officers sitting as a general
court-martial, convicted appellant contrary to his
pleas, of one specification of aggravated sexual contact
and one specification of abusive sexual contact, seven
specifications of assault, one specification of
kidnapping, and one specification of indecent language
in violation of Articles 120, 128, and 134, Uniform
Code of Military Justice, 10 U.S.C. §§ 920, 928, 934
(2012) [UCMJ]. The panel acquitted appellant of one
specification of aggravated sexual contact, two
specifications of aggravated assault, one specification
of simple assault, and three specifications of
communicating a threat, charged under Articles 120,
128 and 134, UCMJ. The panel sentenced appellant to
a dismissal, confinement for two years, and forfeiture
of all pay and allowances. The convening authority
approved the sentence as adjudged.
BACKGROUND
Appellant and CPT AA started dating while
they were cadets at the United States Military
Academy (USMA). They married after both graduated
from flight school in 2009.
In 2011, CPT AA informed appellant that she
wanted a divorce. Appellant opposed dissolution of
their marriage. Later in the year, CPT AA and
appellant both deployed to Afghanistan, but to
different forward operating bases (FOB). While
relation to the entire interview. Appellant has not shown how this
clip;in context, would have resulted in a different outcome at trial.

6a

deployed, CPT AA engaged in an extra marital affair
with a noncommissioned officer (NCO).
Upon redeployment in September 2012, CPT AA
continued to push for a divorce. On or about 8
November 2012, during a verbal disagreement at their
residence, appellant threw a set of keys, hitting CPT
AA in the back. Captain AA called her friend CPT YD.
When CPT YD arrived at the residence, CPT AA was
outside waiting for her. On the drive to work, CPT AA
told CPT YD about the incident involving the keys.
Once they arrived at work, CPT YD suggested that
they take photographs of CPT AA's back to document
the injury and so that CPT AA could see the injury to
her back. This incident was not reported to law
enforcement or the military chain of command, as CPT
AA did not want to negatively impact appellant's
career.
On 18 November 2012, CPT AA again told
appellant she wanted a divorce.
On 19 November 2012, the NCO's wife reported
the extramarital affair to the NCO's chain of
command. After receiving a text from the NCO, CPT
AA told appellant about the affair while they were
having lunch at a local restaurant. Appellant stormed
out of the restaurant, got in his car, threw CPT AA' s
purse out of the window, and began to drive out of the
parking lot. Appellant then backed up and told CPT
AA to get into the car. As they drove back to Fort
Bragg, appellant was visibly angry and drove

7a

erratically. He called a friend, JS,2 and requested that
he accompany them to the trial defense service (TDS)
office.
When they arrived at Fort Bragg, appellant
picked up JS. As they drove to TDS, CPT AA was
crying and appellant was very upset. At TDS, JS told
appellant he should remain in the car because
appellant was still very upset, loud, and verbally
abusive. Captain AA went in to meet with an attorney.
When she was done, they all returned to drop JS off at
the company area. Before leaving the car, JS told
appellant and CPT AA they should not be together
that night.
Appellant and CPT AA proceeded to their
residence. Once there, appellant became even more
agitated, throwing CPT AA's belongings from the car.
He initially refused to let CPT AA into the residence,
but then pulled her inside. Once inside, he demanded
that CPT AA write down all of her passwords for her
computer, bank accounts, and emails. Appellant also
took CPT AA's phone.
Appellant called CPT YD on speaker phone and
demanded she come over to pick up a gift that had
been purchased for her son. Captain YD and her
husband, CPT DD, came over about two hours later.
They witnessed appellant screaming at CPT AA. They
testified that appellant referred to CPT AA as "a filthy
2

JS was previously CPT JS. He knew both appellant and CPT AA
from USMA.

8a

whore, a cunt, a slut," "a fucking whore," and "a
fucking bitch." Captain YD attempted to calm
appellant down. When CPT YD's attempts failed, she
tried to get CPT AA to leave with her. Captain AA
shook her head no and stated, "No, I can't leave," "I
can't go," and "I don't want to go." Appellant responded
by informing CPTs YD and DD that they were
trespassing and needed to get out of his house.
After CPT YD and DD left the residence,
appellant's rage continued to grow. At different times
that night, appellant struck CPT AA with his hands on
various parts of her body, to include her legs, thighs,
buttocks, torso, ribs, chest, eye, and head. At some
point, he threw an ottoman and a pillow at her,
touched her buttocks and genitalia against her will,
and forced her to touch his penis. Appellant told CPT
AA that if she left, he would harm himself.
Throughout the night CPT YD called CPT AA
numerous times. Eventually appellant answered the
phone and stated, "stop fucking calling." Appellant did
allow CPT YD to speak to CPT AA via speaker phone,
and CPT AA stated that she was okay.
When appellant woke up the next morning, he
resumed hitting CPT AA. Upon arriving to her unit
later that morning, CPT AA told CPT YD about the
events of the previous evening and that morning.
Captain YD photographed CPT AA's numerous
injuries. Against CPT AA's wishes, CPTs YD and DD
reported these injuries to the chain of command and a
protective order was implemented.
9a

A commander's inquiry relating to adultery and
fraternization had already been initiated in reference
to CPT AA and the NCO.3
LAW AND DISCUSSION
A. Unlawful Command Influence
Appellant's UCI claims fall broadly into two
categories. First, appellant avers Army officials,
fearful of the perception of being weak on sexual
assault, deprived appellant of protections guaranteed
by the Fifth and Sixth Amendments to the U.S.
Constitution. Second, appellant asserts the Army's
application of the SHARP program in appellant's case
constituted UCI This includes a general assertion that
the convening authority's favorable disposition of an
adverse action against the victim, CPT AA, was proof
of UCI. In these broad claims, appellant largely
reasserts the same UCI arguments litigated in three
motions at various stages at the trial level.
We review allegations of unlawful command
influence de novo. United States v. Salyer, 72 M.J. 415,
423 (C.A.A.F. 2013) (citations omitted).
1. Motions at the Trial Level
We review the military judge's findings of fact

3

Captain AA ultimately received a locally-filed General Officer
Memorandum of Reprimand (GOMOR) and a negative officer
evaluation report for this inappropriate relationship.

10a

made in ruling on a UCI motion under a clearly
erroneous standard. United States v. Villareal, 52 M.J.
27, 30 (C.A.A.F. 1999). Where a "military judge made
detailed findings of fact . . . and these findings are
clearly supported by the record," we adopt them in our
analysis. Id. With that said, we briefly examine the
three UCI motions and rulings at trial.
a. Political Leaders, Senior Military Officials,
and DoD Policy
During an Article 39a, UCMJ, session on 3 April
2014, appellant claimed statements in the media by
the President, Members of Congress, and senior Army
leadership concerning sexual assault in the military,
combined with the Department of Defense (DoD)
SHARP policy and training, constituted apparent UCI
and tainted the accusatory stage of the proceedings. In
support of the allegations, defense counsel introduced
statements by various senior leaders and politicians
about sexual assault in the military. The defense also
introduced slides from various SHARP training
presentations. Defense counsel averred that these
statements put pressure on the battalion commander,
Lieutenant Colonel (LTC) BC, to recommend
proceeding to a court-martial on charges preferred
after a year-long investigation.
During the pretrial motion, LTC BC testified
that he did not feel any pressure from his superiors to
take a particular action in appellant's case, nor did he
believe that there was a climate that all sexual
assaults had to be charged. No further evidence was
11a

presented.4
After considering the evidence presented, to
include LTC BC's testimony, the military judge found
defense counsel failed to present evidence showing
that actual or apparent UCI impacted the proceedings.
Specific to her finding, the military judge found LTC
BC, in acting on the charges, did not receive pressure
from his superiors to take a particular action in this
case. Noting defense counsel had conceded no actual
UCI in the case, the military judge concluded there
was no evidence that publicity concerning sexual
assault in the military or sexual assault training
impacted the "preferral, pretrial investigation, or
referral" in the case. Specifically, the military judge
found defense had failed to demonstrate a logical
connection or nexus between this publicity and
appellant's case in terms of potential to cause
unfairness. The military judge further concluded the
actions of LTC BC in directing additional
investigations into the case and, later, recommending
the case proceed to trial, were not the product of actual
or apparent UCI, but rather the "permissible actions
of a Battalion Commander exercising his authority to
appoint a commander's inquiry and to recommend trial
by court-martial."

4

Though not raised by the appellant, we note that appellant did
voir dire the panel members about their exposure to SHARP
training as well as comments from senior leaders and politicians.
None of the panel members felt pressure to find appellant guilty.
One panel member was challenged by appellant and excused on
an unrelated matter.

12a

b. Claims of a Former Chief of Justice
During an Article 39a, UCMJ, session on 6 June
2013, appellant raised a supplemental motion to
dismiss for UCI, this time asserting that the Deputy
Staff Judge Advocate (DSJA) commanded subordinates
to recommend preferral of charges for all allegations of
sexual assault, thus preventing the Chief of Military
Justice (COJ), Brigade Judge Advocate and Trial
Counsel from making independent and informed
appraisals and recommendations to the commanders
of the 82d Combat Aviation Brigade. In support of this
allegation Major Erik Burris,5 the former COJ testified
that he was told by the Staff Judge Advocate (SJA)
and the DSJA that if there is probable cause in a
sexual assault case, then charges must be preferred.
Major Burris further testified that he felt pressure to
charge sexual assault cases and that he informed his
subordinates of this requirement to prefer all
allegations of sexual assault.
In response to MAJ Burris, the government

5

At the time of appellant's court-martial, MAJ Burris had been
relieved of his duties as the COJ and was pending court-martial
for charges similar to those faced by appellant. Major Burris was
subsequently convicted of disobeying a superior commissioned
officer as well as rape, sodomy, and assault consummated by
battery of his wife. His case is pending appellate review. See
United States v. Burris, ARMY 20150047, 2017 CCA LEXIS 315
(Army Ct. Crim. App. 8 May 2017), reconsidered 2017 CCA LEXIS
507 (Army Ct. Crim. App. 28 Jul. 2017); vacated and remanded,
78 M.J. 56 (C.A.A.F. 2018). We did not consider any matters from
the case of U.S. v. Burris in deciding appellant's case.

13a

called the then current COJ, CPT RL, who testified
that he was a senior trial counsel when MAJ Burris
was the COJ. He attended most meetings with MAJ
Burris and MAJ Burris never informed him of any
policy or guidance on the disposition of sexual assault,
cases. According to CPT RL, neither the SJA nor the
DSJA provided such guidance to him. Similarly, CPT
RL never informed his subordinate trial counsel of
such a policy. More importantly, CPT RL stated that
he did not feel any pressure to pursue sexual assault
cases and that the trial counsel assigned to appellant's
case were not assigned to the office when MAJ Burris
was the COJ.
In denying this motion, the military judge noted,
"Based on the Court's ability to observe these two
witnesses, the Court found CPT [RL's] testimony
credible as opposed to MAJ Burris' testimony." The
military judge found MAJ Burris, in his testimony, did
not "remember exactly how he shared the [DSJA's]
guidance, to whom he shared the guidance, at what
location he shared the guidance, and when he shared
the guidance." Even accepting everything MAJ Burris
stated at face value, the military judge concluded trial
defense counsel failed to produce some evidence of
actual UCI and that apparent UCI did not affect the
proceedings ..
c. The Convening Authority met with Captain AA
After the trial adjourned, appellant hired a
civilian attorney to represent him in the post-trial

14a

stages.6 On 3 April 2015, appellant's civilian defense
counsel requested a post-trial article Article 39(a),
UCMJ, session to address several issues, to include
UCI. The military judge ruled that a post-trial hearing
would be held to address the appellant's allegations
that possible UCI occurred through email exchanges,
various oral communications, or in-person meetings
between the SJA, CPT AA, CPT AA's civilian attorney
(Mr. TC), the Special Victim's Counsel (SVC), and the
Commanding General, who was also the convening
authority in appellant's case.7 Appellant asserted,
among other things, that preferential treatment
afforded by the convening authority to CPT AA in
addressing her misconduct was yet more proof of UCI.
In four Article 39a, UCMJ, sessions held over
seven months from October 2015 to May 2016, the
military judge examined evidence submitted by the
parties and heard from ten witnesses, to include the
convening authority.8

6

Appellant released his counsel who had represented him during
the trial on the merits. The civilian counsel, Mr. Maher, also
represents appellant before this court.

7

Appellant also filed a motion to dismiss, or in the alternative, for
a new trial. This request was properly denied by the military
judge.

8

We applaud the military judge for conducting these post-trial
sessions in order to address potential issues before the case was
forwarded to this court. Not only does this practice serve the
interests of judicial economy, it allows the military judge most
familiar with the case to address the issues.

15a

During his testimony, the convening authority
was not asked about his decision to refer the charges
in appellant's case; instead he was asked about his
decision to locally file a General Officer Memorandum
of Reprimand (GOMOR) CPT AA received for her
inappropriate relationship with the male NCO. The
convening authority's response to a congressional
inquiry filed by appellant was submitted for the
post-trial Article 39a, UCMJ, session, which stated,
"Regarding CPT Camacho's concern that UCI played
a role in this case, I can assure you that I considered
only the facts of the case when I made my decision to
refer it to a General Court-Martial."
The military judge also considered evidence that
between 8 November 2013 through on or about 14
April 2014, Mr. TC began email communication with
the SJA, DSJA, TC, SVC, and Special Victim
Prosecutor (SVP). These emails included disparaging
remarks about appellant and comments such as "I do
see some concerns reprimanding a domestic violence
victim." In their testimony, the SJA and DSJA
acknowledged receipt of the emails from Mr. TC, but
both denied ever discussing or showing the emails to
the convening authority.
Based on the evidence and testimony, the
military judge made several factual findings. First, the
military judge found the charges were preferred
against appellant on 6 November 2013. Second, on 11
February 2014, the convening authority referred the
charges in appellant's case to a general court-martial
based on the Article 32, UCMJ, investigation and the
16a

Investigating Officer's recommendation. Third, on 31
March 2014, the following people met with the
convening authority: the SJA, CPT AA, Mr. TC, the
SVC, and COL MM (all of these individuals, except
CPT AA, testified at the post-trial Article 39a, UCMJ,
session).9 The purpose of this meeting was to discuss
the filing of the GOMOR that CPT AA received on 6
November 2013 for adultery and fraternization. There
was no discussion during this meeting concerning
appellant's case.
The military judge considered all of the
testimony and found defense counsel had failed to
establish a logical connection between appellant's
various claims of UCI based upon CPT AA's meeting
with the convening authority and the alleged
preferential treatment received by CPT AA from the
convening authority and others in addressing her
fraternization and adultery with the male NCO.
Specifically, the military judge found no linkage
between Mr. TC's correspondence with the SJA and
the convening authority's decision to refer charges

9

Defense counsel were not notified about this meeting until after
the trial adjourned. In the post-trial Article 39a, UCMJ, session,
appellant asserted the government's failure to notify defense of
this meeting and provide related correspondence between CPT
AA's attorney and the government constituted a violation of Rule
for Court-Martial 701(a)(6) and Brady v. Maryland, 373 U.S. 83
(1963). The military judge-correctly, in our view-determined that
even if the government's failure to provide this information
violated R.C.M. 701(a)(6) or Brady, the defense failed to establish
reasonable probability that there would have been a different
result at trial. See Kyles v. Whitley, 514 U.S. 419 (1995).

17a

against appellant to trial.
We find the military judge's findings of fact in
each of these motions were not clearly erroneous and
we agree with the military judge's resolution in each
instance.
2. Appellant's Claims on Appeal
Before us, appellant makes several arguments
as to why UCI pervaded this case. We need not
address many of these allegations as we find the
military judge correctly decided these UCI claims each
time they were raised. Nonetheless, some of
appellant's arguments warrant a brief discussion, but
no relief.
a. Unlawful Command Influence
As an overall claim, appellant asserts CPT AA
was vested with a special victim status that, in various
ways, unfairly tilted the proceedings against appellant.
This status allowed CPT AA to change duty stations to
Fort Leonard Wood, where she was awarded a slot in
the Engineer Captain's Career Course (ECCC), and
effectively allowed her to escape punishment.
Appellant asserts the application of the SHARP
program to CPT AA constituted UCI and prejudiced
his trial. We disagree.
Article 37(a), UCMJ, states in relevant part: "No
person subject to this chapter may attempt to coerce or
. . . influence the action of a court-martial or any other
18a

military tribunal or any member thereof, in reaching
the findings or sentence in any case ... . " "Even if there
was no actual unlawful command influence, there may
be a question whether the influence of command
placed an intolerable strain on public perception of the
military justice system." United States v. Lewis, 63
M.J. 405, 415 (C.A.A.F. 2006) (quoting United States v.
Stoneman, 57 M.J. 35, 42-43 (C.A.A.F. 2002)) (internal
quotation marks omitted). "[T]he appearance of
unlawful command influence will exist where an
objective, disinterested observer, fully informed of all
the facts and circumstances, would harbor a
significant doubt about the fairness of the proceeding."
Lewis, 63 M.J. at 415.
On appeal, appellant bears the initial burden of
raising unlawful command influence. "Appellant must
show: (1) facts, which if true, constitute unlawful
command influence; (2) that the proceedings were
unfair; and (3) that the unlawful command influence
was the cause of the unfairness." Salyer, 72 M.J. at
423 (citing United States v. Richter, 51 M.J. 213, 224
(C.A.A.F. 1999)) (quoting United States v. Biagase, 50
M.J. 143, 150 (C.A.A.F. 1999)). "Thus, the initial
burden of showing potential unlawful command
influence is low, but is more than mere allegation or
speculation." Id. (citing Stoneman, 57 M.J. at 41). "The
quantum of evidence required to raise unlawful
command influence is "'some evidence."' Id. (citing
Stoneman, 57 M.J. at 41) (quoting Biagase, 50 M.J. at
150). Our superior court has further held that
"prejudice is not presumed until the defense produces
evidence of proximate causation between the acts
19a

constituting [UCI] and the outcome of the
court-martial." Biagase, 50 M.J. at 150 (citing United
States v. Reynolds, 40 M.J. 198, 202 (C.M.A. 1994)).
Once an appellant has presented some evidence
of UCI, the burden shifts to the government to
demonstrate to this court beyond a reasonable doubt
that: "(l) the predicate facts do not exist; (2) the facts
do not constitute unlawful command influence; or (3)
the unlawful command influence did not affect the
findings or sentence." Salyer, 72 M.J. at 423 (citing
Biagase, 50 M.J. at 151).
Simply because the Army has a SHARP
program and instituted training does not constitute
UCI Appellant fails to demonstrate any nexus between
the SHARP program, generally, and the any issue of
consequence that occurred in his trial. Further, no
evidence was presented, in particular, to show that
anyone in a position of authority over appellant's case
was influenced by the Army's SHARP program,
training they may have attended, or comments made
by senior leaders and/or politicians. There must be
more than command influence "in the air" to justify
action by an appellate court. United States v. Allen, 33
MS 209, 212 (C.M.A. 1991) (citations omitted).
Appellant's claims, taken in totality, do not pass this
measure, particularly given that the evidence and
testimony presented during the three UCI motion
hearings compellingly demonstrated that the
commanders who recommended action or took action
in appellant's case were not improperly influenced in
making their decisions.
20a

Overall, we find appellant has failed to present
"some evidence" of actual or apparent unlawful
command influence on appellant's proceedings. Even
if we had found appellant met this initial low burden
of proof, we are convinced beyond a reasonable doubt
that no unlawful command influence affected the
findings or sentence.
b. Unlawful Influence
As another overarching theme, appellant claims
the convening authority's meeting with CPT AA and
Mr. TC on 31 March 2014, and the lack of any
meaningful punishment for CPT AA for fraternization
and adultery, somehow injected unlawful command
influence into appellant's trial. Although we view this
not as a UCI claim, but rather an unlawful influence
claim, we still resolve this issue against appellant.
We are mindful that, while most claims under
Article 37(a), UCMJ, allege the unlawful influence was
committed by someone wearing the mantle of
command authority, that is not a prerequisite to
establishing a claim that the proceedings were
unlawfully influenced by a member subject to the
UCMJ. Both unlawful command influence and
unlawful influence are proscribed by Article 37,
UCMJ, but the latter does not require the act be done
with the mantle of command authority. Actual
unlawful influence occurs "when there is an improper
manipulation of the criminal justice process which
negatively affects the fair handling and/or disposition
of a case." United States v. Barry, 78 M.J. 70, 77
21a

(C.A.A.F. 2018) (quoting United States v. Boyce, 76
M.J. 242, 247 (C.A.A.F. 2017). The test for unlawful
influence is the same as the test for unlawful
command influence, including the requirement, if
appellant meets his burden, that the government
prove any improper influence was harmless beyond a
reasonable doubt. Barry, 78 M.J. at 77 n.4.
First, appellant tries to reason that CPT AA's
lack of meaningful punishment for fraternization and
adultery are proof of the unlawful influence pervading
his trial. Again, we see no nexus between the
resolution of CPT AA's GOMOR, her move to Fort
Leonard Wood, or attendance at the ECCC and the
results of appellant's trial. As explained by the
convening authority, CPT AA's GOMOR was
locally-filed because the issuance of a negative Officer
Evaluation Report would have the same detrimental
effect on her career. CPT AA's permanent change of
station was something permitted by DoD policy, which
also had no nexus to the charges against appellant.
Finally, CPT AA's attendance at ECCC was authorized
by a completely different command, not the convening
authority.
Second, we find no evidence of unlawful
influence exerted by Mr. TC or CPT AA simply because
they requested and were granted a routine meeting
with the convening authority to discuss a GOMOR
filing determination. Appellant's court-martial was not
a topic raised during the meeting. While the record is
replete with messages and comments by Mr. TC to
members of the SJA's staff that disparaged appellant,
22a

none of these communications were shared with the
convening authority. Finally, and more importantly,
this meeting occurred well after the convening
authority referred charges. Unlawful influence did not
occur, nor was there an appearance of unlawful
influence, in the referral stage of appellant's trial. A
meeting between the convening authority and CPT AA
to discuss the filing of a GOMOR did not create actual
or apparent unlawful influence in decisions previously
made by the convening authority.
Overall, as with UCI, we find appellant has
failed to present "some evidence" of actual or apparent
unlawful influence on appellant's proceedings. Even if
we had found appellant met this initial low burden of
proof, we are again convinced beyond a reasonable
doubt that any of the alleged unlawful influence did
not affect the findings or sentence.
B. Factual and Legal Sufficiency
Article 66(c), UCMJ, establishes our statutory
duty to review a record of trial for legal and factual
sufficiency de novo. United States v. Walters, 58 M.J.
391, 395 (C.A.A.F. 2003). Under Article 66(c), UCMJ,
we may affirm only such findings of guilty that we find
correct in law and fact and determine, based on the
entire record, should be affirmed. In weighing factual
sufficiency, we take "a fresh, impartial look at the
evidence," applying "neither a presumption of
innocence nor a presumption of guilt." United States v.
Washington, 57 M.J. 394, 399 (C.A.A.F. 2002). "[A]fter
weighing the evidence in the record of trial and
23a

making allowances for not having personally observed
the witnesses, [we must be] convinced of the
[appellant's] guilt beyond a reasonable doubt." United
States v. Turner, 25 M.J. 324, 325 (C.M.A.· 1987). The
evidence must leave "no fair and reasonable hypothesis
other than appellant's guilt." United States v. Billings,
58 M.J. 861, 869 (Army Ct. Crim. App. 2003) (citation
omitted).
1. Kidnapping
As charged in Specification 1 of Charge III, the
Article 134, UCMJ offense of kidnapping required,
inter alia, proof beyond a reasonable doubt that
appellant held CPT AA against her will. See Manual
for Courts-Martial, United States (2012 ed.) [MCM], pt.
IV, ¶ 92.b.(2). We find the evidence insufficient on this
element.
There is no dispute that appellant and CPT AA
were in their marital home on 19 November 2012.
However, we cannot find beyond a reasonable doubt
that appellant held CPT AA against her will. In
making this determination we considered that an
involuntary detention "may result from force, mental
or physical coercion, or from other means, including
false representations." MCM, pt. IV, ¶ 92.c.(3) .. We
find none of these modes of detention here. In making
this assessment, we have also factored in the
"availability or nonavailablity" to CPT AA of a means
of exit or escape and evidence of threats or force ( or
lack thereof). See id. We conclude that CPT AA had at
least three opportunities to leave; twice when CPT YD
24a

and DD requested she leave; and then when appellant
was asleep or unconscious. Additionally, CPT AA was
not in a remote location where help could not be
obtained. Instead she was in her marital home in a
neighborhood where she knew several of her
neighbors, to include her closest neighbor whom she
met at USMA. The only threat appellant made was to
injure himself, which under the unique circumstances
of this case, was not sufficient to prove appellant held
CPT AA against her will. Therefore, we find the
evidence factually insufficient for the offense of
kidnapping.
2. Indecent Language
We also find the evidence supporting appellant's
conviction for indecent language factually insufficient.
A conviction for the delivery of indecent
language can be upheld when the language used is
"grossly offensive to modesty, decency, or propriety, or
shocks the moral sense because of its vulgar, filthy, or
disgusting nature, or its tendency to incite lustful
thought." MCM, pt. IV, ¶ 89.c.; see also United States
v. Green, 68 M.J. 266, 269 (C.A.A.F. 2010); United
States v. Negron, 60 M.J. 136, 142 (C.A.A.F. 2004 ). In
a nutshell, the Manual presents two separate
definitions by which to measure speech that,
depending on the "context in which it is spoken" may
be a crime. Negron, 60 M.J. at 144; see also United
States v. Jackson, NMCCA 20090041, 2009 CCA
LEXIS 298, at *7-*8 (N.M. Ct. Crim. App. 25 Aug.
2009).
25a

The opprobrium appellant spewed at his
unfaithful spouse "was clearly calculated or intended
to express his rage, not any sexual desire." United
States v. Brinson, 49 M.J. 360, 364 (C.A.A.F. 1998).
Put another way, there was clearly no "libidinous
message" conveyed. Id. at 368 (Cox, C.J ., concurring).
Examining the words used by the cuckolded
appellant to describe his wife, in context, we do not
find them to meet the definition of "indecent
language," nor to be service discrediting or prejudicial
to good order and discipline. Appellant's abusive
language was directed at a fellow captain (his wife) at
an off-post private residence shortly after discovering
CPT AA had an adulterous affair with a
noncommissioned officer while both she and appellant
were deployed. The victim of appellant's tirade was
neither a minor, see, e.g., United States v. Avery,
ARMY 20140202, 2017 CCA LEXIS 739 (Army Ct.
Crim. App. 30 Nov. 2017) (unpub.), nor a subordinate,
see, e.g., United States v. Caver, 41 M.J. 556 (N.M. Ct.
Crim. App. 1994). The presence of two other officers of
equal rank during appellant's profanity-laced tirade is
of no moment here. In a different setting, it can be
gainsaid that appellant's outrageous description of a
fellow human being would be so grossly offensive to
decency as to meet all elements of the offense of
indecent language. However, under the facts of this
case, we are unable to affirm appellant's conviction
and accordingly set aside and dismiss Specification 5
of Charge III as factually insufficient.

26a

CONCLUSION
The findings of guilty for Specifications 1 and 5
of Charge III are set aside and dismissed. The
remaining findings of guilty are AFFIRMED.
We are able to reassess the sentence on the
basis of the errors noted and do so after conducting a
thorough analysis of the totality of circumstances
presented by appellant's case and in accordance with
the principles articulated by our superior court in
United States v. Sales, 22 M.J. 305 (C.M.A. 1986), and
United States v. Winckelmann, 73 M.J. 11, 15-16
(C.A.A.F. 2013).
In evaluating the Winckelmann factors, we first
find a significant change in the penalty landscape, as
the maximum period of confinement dropped from life
without the possibility of parole to twenty-nine years
and six months. However, this one factor is not
dispositive. Id. at 15. Second, we note that appellant
elected to be tried by members, a factor which can
weigh against a sentence reassessment. However, "this
factor could become more relevant where charges
address service custom, service discrediting conduct, or
conduct unbecoming." Id. at 16. The remaining
charges, in our view, truly capture the gravamen of
appellant's offenses. That is, the charges in this case
primarily focused on appellant's brutal assaults,
aggravated sexual contact, and abusive sexual contact
with his wife. We have extensive experience and
familiarity with these types of offenses as they are the
subject of many of the cases we review, and can
27a

reliably determine that appellant would have received
a dismissal, confinement for two years and forfeiture
of all pay and allowances even without the dismissed
specifications. We therefore AFFIRM the sentence as
adjudged.
All rights, privileges, and property, of which
appellant has been deprived by virtue of those portions
of the findings set aside by our decision, are ordered
restored.
Judge HAGLER and Judge SCHASBERGER
concur.
FOR THE COURT:
/s/
JOHN P. TAITT
Chief Deputy Clerk of Court

28a

